No. 19-259

In The
SUPREME COURT OF THE UNITED STATES
MARON PICTURES LTD.,
Petitioner,
v.
SAM EIGEN et al.,
Respondents,
On Petition for Writ of Certiorari to the California
Court of Appeal for the Second Appellate District
REPLY BRIEF FOR PETITIONER
MAZUR & MAZUR, LLC
Janice R. Mazur
(Counsel of Record)
S.B.N. 144611
13465 Camino Canada,
Suite 106, No. 103
El Cajon, California 92021
Telephone: 800-383-5002
email: appealslawyer@aol.com

COMPANY DISCLOSURE STATEMENT
Maron Pictures Ltd. has no parent company. Maron
Pictures Ltd. is owned by Mark Mahon, who is a sole
proprietor, administrator, sole beneficiary and the
only creditor of Maron Pictures Ltd. Mark Mahon is
also the sole owner and Copyright holder of the
the U.S. Copyright Office, registration no. PA 1-642297. Mark Mahon is also the registered Copyright
owner of the screenplay registered in the U.S.
Copyright Office, registration no. TXul-289-556.
fall under the protection of Title 17, United States
Code and of The Berne Convention Implementation
Act of 1988.

ii
TABLE OF CONTENTS
Page
COMPANY DISCLOSURE STATEMENT.............. i
TABLE OF AUTHORITIES

.. iii

REPLY BRIEF FOR PETITIONER
I.

1

This Case Is Properly Presented.

...... 2

II.
.

5

III. Respondents Ignore The Actual
................. 7
IV. Copyright Preemption Does Apply To
Extra-

11
14

iii
TABLE OF AUTHORITIES
Page
CASES
Aryeh v. Canon Business Solutions, Inc.
(2013) 55 Cal.4th 1158
9
Bateman v. Mnemonics, Inc.,
79 F.3d 1532, 1541 (11th Cir. 1996)
4
Brannan v. United Student Aid Funds, Inc.,
94 F.3d 1260 (9th Cir. 1996)
3
Bryant v. Media Right Productions, Inc.,
603 F.3d 135 (2d Cir. 2010)
11
Caterpillar v. Williams,
482 U.S. 386, 392 (1987)
. 3
Close v. Sotheby's, Inc.,
No. 16-56234 (9th Cir. Jul. 6, 2018)
.... 3
Famous Music Corporation v. Seeco Records, Inc.,
201 F. Supp. 560, 568-69 (S.D.N.Y. 1961)
13
Griffis v. S.S. Kresge Co.,
150 Cal.App.3d 491 (Cal. Ct. App. 1984)
,
299 U.S. 109 (1936)
Home Depot U.S.A. Inc. v. Jackson,
No. 17-1471, slip op. at 1 (U.S. May 28, 2019)......... 4
Johnson v. Armored Transport of California,
813 F.2d 1041 (9th Cir. 1987)
... 4
Lantzy v. Centex Homes,
31 Cal.4th 363 (Cal. 2003)
Louisville & Nashville R. Co. v. Mottley,
211 U.S. 149 (1908)

iv
TABLE OF AUTHORITIES
(continued)
Los Angeles News Ser. v. Reuters Television I,
149 F.3d 987 (9th Cir. 1998)
. 14
Metropolitan Life Ins. Co. v. Taylor,
481 U.S. 58 (1987)
3
Obb Personenverkehr AG v. Sachs,
136 S. Ct. 390 (2015)
4
Original Appalachian Artworks, v. Toy Loft,
684 F.2d 821, 27-28 (11th Cir. 1982)
4
Robert Stigwood Group Ltd. v. O'Reilly,
530 F.2d 1096 (2d Cir. 1976)
Shamrock Oil Corp. v. Sheets,
313 U.S. 100 (1941)
.
Sheldon v. Metro-Goldwyn Pictures Corp.,
106 F.2d 45, 52 (2d Cir. 1939)
Sheldon v. Metro-Goldwyn Corp.,
309 U.S. 390 (1940)
Sickle v. Torres Advanced Enter. Sols., LLC,
884 F.3d 338, 345 (D.C. Cir. 2018)
.. 3
Subafilms, Ltd. v. MGM-Pathe Communications Co.,
24 F.3d 1088 (9th Cir. 1994)
12
Update Art, Inc. v. Modiin Publishing, Ltd.,
843 F.2d 67, 73 (2d Cir. 1988)
Vu v. Prudential Property & Casualty Insurance,
26 Cal.4th 1142 (Cal. 2001)
9

v
TABLE OF AUTHORITIES
(continued)
INTERNATIONAL PROVISIONS
The Berne Convention Implementation Act
of 1988

. 11

STATUTES
17 U.S.C. § 101
17 U.S.C. § 106

...1, 7, 13
..... 6, 11
............................................ 6, 11
................................... 3, 11
17 U.S.C. § 501...................................................... 6, 11
17 U.S.C. § 504
11
28 U.S.C. § 1631
.9
C

.. 11
.. 6, 7
.6
6

Cal.Evid.Co
OTHER MATERIALS
1 Nimmer on Copyright.

.. 8
.. 8
.. 8

...13, 14

-1REPLY BRIEF FOR PETITIONER
This case is a very simple, straight forward
matter but was made to appear complex through
deceitful techniques intentionally deployed by
Respondents throughout, as they profited and enjoy
resources and
copyright protected work whilst brazenly ignoring
moral rights, ownership rights and
royalties due contrary to Federal Copyright Law. (17
U.S.C. §§ 101, et seq.)
Through the smoke and mirrors of
presented to this Court and the
large number of erroneous legal references, which
are completely inappropriate to the matters at hand,
arguments.
completely shows
that they recognize that the trial court wrongly ruled
in favor of Respondents at trial in its bizarre
interpretation of the Delivery requirement of the
Agreement as somehow imposing a forfeiture by
Respondents actually licensed and distributed all
over the world, nonetheless did not entitle Petitioner
to any benefits of the Agreement. Tellingly, the
physical agreement was originally presented to
Petitioner with the short form page in first order
under
FORM DISTRIBUTION

-2AGREEMENT too. (Res.App., p.43a-p.44a.)1 Why
Respondents would be entitled to the benefits of
enforceable agreement was never explained by the
trial court or appellate court. California law abhors a
forfeiture. Courts also attempt to avoid absurdly
literal interpretations of contracts. The trial and
The
c
that Petitioner failed to
very Film that Respondents commercially exploited
necessarily meant that Respondents had no rights to
use the Film and have committed copyright
infringement but by doing so, the claims would fall
outside of the 1-year contractual statute of
limitations.
I.
This Case Is Properly Presented.
Respondents clothe justiciability matters
raised about the record in vague concerns, but
neither do their underlying record-related complaints
nor their jurisdictional window-dressing arguments
have any substance. This is particularly noticeable
through Respondents humbug that attempts to
address
well pleaded complaint, first
amended complaint, Federal Copyright Law issues
1

n Opposition, No. 19-259;
the petition for writ of

certiorari, No. 19-

-3raised during the bench trial as well as with the
appellate court, and the preemption matters raised
by failing to cite a single preemption precedent
applicable to motion picture rights because they
cannot. (
, p.23 through p.29.) For example,
Respondents cite Metropolitan Life Ins. Co. v. Taylor,
481 U.S. 58 (1987) (citing
,
299 U.S. 109 (1936); Louisville & Nashville R. Co. v.
Mottley, 211 U.S. 149 (1908)) which has to do with an
employee benefit plan and Caterpillar v. Williams,
482 U.S. 386, 392 (1987) which again, is a matter
involving individual employment contracts. To
further confuse this Court in its attempt to make a
case for why preemption pursuant to 17 U.S.C. § 301,
which codifies
is not available to
Petitioner, it speaks on Ordinary or Defensive
available to Petitioner, who was plaintiff in the
underlying action, because federal preemption is an
affirmative position available
(
, p.25-p.26.) Respondents then cite
inappropriate cases like Metropolitan Life Ins. Co. v.
Taylor, 481 U.S. 58 (1987) after this again; Close v.
Sotheby's, Inc., No. 16-56234 (9th Cir. Jul. 6, 2018)
(citing Sickle v. Torres Advanced Enter. Sols., LLC,
884 F.3d 338, 345 (D.C. Cir. 2018) that concerns
resale royalties under the California Resale Royalties
Act; Brannan v. United Student Aid Funds, Inc., 94

-4F.3d 1260 (9th Cir. 1996) (holding that the Higher
Education Act preempts all state law that regulates
pre-litigation collection activities); Johnson v.
Armored Transport of California, 813 F.2d 1041 (9th
Cir. 1987) concerning armored car service to
businesses in San Francisco; Shamrock Oil Corp. v.
Sheets, 313 U.S. 100 (1941) (holding that cases
counterclaim but which has since been superseded)
and finally, Home Depot U.S.A. Inc. v. Jackson, No.
17-1471, slip op. at 1 (U.S. May 28, 2019).
Further examples of inappropriate references,
but not limited to, are where Respondents concede
part of the bench trial. (B
, p.29 through
p.34.) It is also interesting that in order to further
confuse this Court, Respondents cite Obb
Personenverkehr AG v. Sachs, 136 S. Ct. 390 (2015)
(Finding that a personal injury suit arising from a
fall during train travel was not "based upon" the
train ticket sale by the foreign state) which has
nothing to do with motion picture rights or the
copyright certificate issue on discussion that was
before the trial court. In fact, Respondents cite
Original Appalachian Artworks, v. Toy Loft, 684 F.2d
821, 27-28 (11th Cir. 1982) and Bateman v.
Mnemonics, Inc., 79 F.3d 1532, 1541 (11th Cir. 1996)
copyright, the burden shifts to the defendant to

-5demonstrate why the claim of copyright is
arguments. Needless to say, this should clearly be
seen for the modus operandi that Respondents have
continuously engaged over the last nine years.
II.
Statement.
ully represented by counsel during an
ensuing state court bench trial, Petitioner again
raised no copyright issues. Then, when the trial court
issued its preliminary decision in favor of
Respondents and invited objections or modifications
thereto, Petitioner was silent. In so doing, Petitioner
waived any objections and/or right to request
or to invoke copyright claims under federal copyright
(
, p. 4.) Respondents conveniently fail
to represent the facts to this Court. The court records
clearly reflect that the copyright certificate was used
during the bench trial (6 CT:1269, MTA pp. 197-198;
R.T.P.O., p.63-p.64; Pet.App., p.19a) as the
infringement issues were raised.
Secondly, what Respondents are also aware of
counsel broke down during the bench trial as his
former counsel was about to seek to withdraw, and
then went out of state as the court invited objections
and modifications thereto. Petitioner, as an entity,
literally could not file such an objection by law. It is,

-6frankly, misleading for Respondents to suggest that
objections and/or right to request modification of the
s preliminary decision
It also
Mark Mahon, however, still attempted to file
objections to the Proposed Statement of Decision,
but they were rejected by the trial court because
Petitioner could only appear through counsel. (6 CT:
1281.) The appellate court was made aware of this
too and also denied
motion to augment
these documents to the record on July 12, 2017,
which contained his six page letter addressed to the
trial Judge highlighting the court errors dated July
18th, 2016 and an 87 page book of evidence, which
included copies of the various exhibits presented
during the trial with notes asserting Federal
Copyright Law (17 U.S.C. §§ 106, 106A, 501)
violations
ssertion here is
flatly wrong and completely unsupported by the law,
that the effect of a failure to file is that a reviewing
court will assume that unstated issues were decided
in favor of the prevailing party:
When a statement of decision does not resolve a
controverted issue, or if the statement is ambiguous
and the record shows that the omission or
ambiguity was brought to the attention of the
trial court either prior to entry of judgment or in
conjunction with a motion under 657 or 663, it shall
not be inferred on appeal or upon a motion under

-7Section 657 or 663 that the trial court decided in
favor of the prevailing party as to those facts or on
that issue.

Code of Civil Procedure Section 634 (emphasis
added). Clearly, there are still numerous issues that
remain unresolved and in fact, the rulings have also
created a quagmire of new legal issues that are
contrary to Federal Copyright Law (17 U.S.C. §§ 101,
et seq.) and well established legal precedents.
III. Respondents Ignore The Actual Facts.
Respondents further claim that Petitioner
ignores that both the trial court and appellate court
are bound by the trial record.
, p.13.)
However, as stated in the appellate court Opinion,
estopped from
asserting a statutory or contractual limitations
caused the plaintiff to refrain from filing a timely
conduct was reasonable. (Lantzy v. Centex Homes
(2003) 31 Cal.4th 363, 384-385 (Lantzy).) The
defendant need not intend to deceive the plaintiff to
give rise to an equitable estoppel
(Pet.App., p.34a.)
But in this case, this well established rule of
law was applied to a significantly different set of

¶]
As I mentioned, we will be in better shape next

-8There is no further correspondence in the
record between the parties discussing a date for
mediation.
(emphasis added)(Pet.App., p.31ap.32a.) However, Petitioner had put appellate court
on notice of the correct facts in its Opening Brief filed
02/21/2018, and of facts and exhibits that it had
incorrectly stated in its Opinion pursuant to Cal.
Evid. §
may take judicial notice of any matter specified in
Section 452. The reviewing court may take judicial
notice of a matter in a tenor different from that
noticed
Cal. Evid. §452 further
matters to the extent that they are not embraced
within Section 451: (d) Records of (1) any court in the
addressed when Petitioner filed

03/05/2019 (Pet.App., p.11a)
on 03/08/2019, which was denied on the same day
(Pet.App., p.6a)
sfer of appellate
denied by appellate court on 03/14/2019. (Pet.App.,
p.4a.)
The missing factual information is very
significant based on the appellate court
(Pet.App., p.17a, p.19a-p.20a, p.24a-p.25a, p.29a
through p.36a) and would have completely changed
the outcome based on the actual timeline. In this

-9case which evidence supports (R.T.P.O., p.12-p.14)
to refrain from filing a timely suit and
(Lantzy v. Centex Homes (2003) 31 Cal.4th 363, 384385 (Lantzy
(Pet.App., p.34a.)
here
the delay in commencing action is induced by the
conduct of the defendant it cannot be availed of by
Vu v. Prudential Property &
Casualty Ins. Co. (2001) 26 Cal.4th 1142, 1152; see
also Griffis v. S.S. Kresge Co., (1984) 150 Cal.App.3d
491, 499.
Petitioner also completely contested this
finding and called for legal clarification and
jurisdiction under 28 U.S.C. §1631.
Further, as correctly stated in appellate
court
as each triggering its own limitations period, such
that a suit for relief may be partially time-barred as
to older events but timely as to those within the
Aryeh v. Canon
Business Solutions, Inc. (2013) 55 Cal.4th 1158, 1192
(Aryeh
doctrine aggregates a series of wrongs or injuries for
purposes of the statute of limitations, treating the
limitations period as accruing for all of them upon
Ibid.)

- 10 renders an entire course of conduct actionable, the
theory of continuous accrual supports recovery only
for damages arising from those breaches falling
Id
(Pet.App., p.38a-p.39a.)
Petitioner also agrees with this rule of law,
which is why the appellate court
no
sense.
Appellate court

Pictures on Janua
(Pet.App., p.43a.)
However, it has been continuously disputed
that Mainsail
as per the
letter from Maron Pictures on Jan 29, 2010.
Furthermore, over nine years after a very specific
formal demand was issued by Petitioner to

copyright (6CT:1269, MTA pp. 82; R.T.P.O., p.63 p.64), and
where the product
ailers is listed
for sale
marketplace and was during all court and appellate
proceedings, was never withdrawn which is global
exclusive rights. (MTA pp.82, MTA pp.132 through
139; MTA pp.157 through 165; MTA pp.183-184.)

- 11 These
are owned solely by Mark
were never assigned
to Respondents and are fully protected under 17
U.S.C. §§ 106(1), 106(2), 106(5), 106A, 301, 501, 504
and under the Berne Convention Implementation Act
of 1988, Section 3 (b) and Section 3 (b)(2). Further
law established for a public reason cannot be
§ 3513.) Furthermore, Petitioner also attached his
copyright certificates, the
Request to Publish
Opinion despite the appellate court denying his
motions to augment, so they were aware that his
Film was still generating revenue up until at least
2015. (R.T.P.O., p.54 through p.64.)
IV.
Copyright Preemption Does Apply To
Extra-Territorial Conduct.
Respondents argue that Copyright preemption
does not apply to extra-territorial conduct and cites
Subafilms, Ltd. v. MGM-Pathe Communications Co.,
24 F.3d 1088 (9th Cir. 1994) (Holding that no
infringement took place where the copying of a
copyrighted work occurred overseas and was merely
authorized in the United States) and Robert
Stigwood Group Ltd. v. O'Reilly, 530 F.2d 1096 (2d
Cir. 1976), which relates to a staged Opera concert in
Canada performed by Catholic priests without a
license but has been superseded by Bryant v. Media
Right Productions, Inc., 603 F.3d 135 (2d Cir. 2010).

- 12 license of the Film was limited to territories outside
the United States. Thus, there is no basis for this
copyright claims because any alleged infringement
,
p.22.) However, the cases Respondents cite are not
applicable to this matter as these relate to cases
where the asserted infringing conduct consists solely
of authorization within the United States of acts that
occur entirely abroad. In fact, we submit that
Subafilms, Ltd. v. MGM-Pathe Communications Co.,
24
F.3d
1088
(9th
Cir.
1994)
supports
extraterritoriality as an element of copyright
infringement.
In this case, Petitioner provided Respondents
with one master copy of each individual element
as per distribution Agreement. (Res.App., p.32a
through p.44a.) These masters were delivered to
Visual Data Media Services in Los Angeles for
Respondents, which still remain at Visual Data in
California today. (6 CT:1269, MTA pp. 169 through
172.) Based on the legal discovery conducted in
December 2014, it was established that Respondents
delivered his motion picture to over 41 countries
around the world, so numerous copies of each master
element were replicated by Respondents, who then
distributed physical sub-masters from the United
States to the relevant countries. Visual Data also

- 13 confirmed this to Petitioner, so copyright violations
under Federal Copyright Law (17 U.S.C. §§ 101, et
seq.) do apply. Respondents also generated the
illicit covers and trailer from the masters
provided within the United States, which they
provided to every respective country too.
Further, previous circuit court rulings have
found that the copyright holder may recover
damages that stem from a direct infringement of its
exclusive rights that occurs within the United States.
Sheldon v. Metro-Goldwyn Pictures Corporation, 106
F.2d 45, 52 (2d Cir. 1939) (L. Hand, Judge.) ("The
reproduced', and it was a
tort to make them in this country. The defendants
acquired an equitable interest in them as soon as
they were made, which attached to any profits from
their exploitation. . . ."), aff'd, 309 U.S. 390 (1940);
Famous Music Corporation v. Seeco Records, Inc.,
201 F. Supp. 560, 568-69 (S.D.N.Y. 1961). In these
cases, liability is not based on contributory
infringement, but on the theory that the infringing
use would have been actionable even if the
subsequent foreign distribution that stemmed from
that use never took place.
Professor Nimmer formulates the doctrine in the following
terms:
[I]f and to the extent a part of an `act' of infringement
occurs within the United States, then, although such
act is completed in a foreign jurisdiction, those parties

- 14 who contributed to the act within the United States
may be rendered liable under American copyright law.
3 Nimmer, supra, § 17.02, at 17-19 (footnotes omitted).

generally do not have extraterritorial application.
There is an exception
when the type of
infringement permits further reproduction abroad
such as the unauthorized manufacture of copyrighted
Update Art, Inc. v.
Modiin Publishing, Ltd., 843 F.2d 67, 73 (2d Cir.
1988). See also Los Angeles News Ser. v. Reuters
Television I, 149 F.3d 987 (9th Cir. 1998) (Finding
that plaintiff was "entitled to recover damages
flowing from exploitation abroad of the domestic acts
of infringement committed by defendants").
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
JANICE R. MAZUR
MAZUR & MAZUR, LLC
13465 Camino Canada,
Suite 106, No. 103
El Cajon, California 92021
Telephone: 800-383-5002
appealslawyer@aol.com
October 10, 2019

